                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           Office of Inspector General
                                                           Washington. O.C. 20230




February 20, 20 14

MEMORANDUM FOR: 	 Kenneth E. Hyatt
                              Acting Under ~\\ta: for ~nternat~\~ rade

FROM: 	                       Ann C. Eilers   -~tJV-... ~            L~
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT: 	                    Audit of ITA Consolidation



The July 18, 2013 , Senate Appropriations Committee report on the Departments of Commerce
and Just ice, Science, and Related Agencies directed the Office of Inspector General (OIG) to
evaluate and report on the progress, efficacy, and management of the consolidation of ITA's four
business units into three. Specifically, OIG is to evaluate: management and leadership challenges
related to the consolidation; relevant changes in staffing and funding levels in headquarters,
domestic, and overseas offices; and ex pected increases or decreases in administrative and
overhead costs.

The OIG is also asked to consider feedback from affected staff and organizations, including
Commercial Service officers, foreign and domestic ITA employees, the American Foreign Service
Association, and the District Ex port Council (Senate Report I 13-78, p. 49) in preparing the initial
report or any subsequent re ports. OIG is directed to file an initi al report with the Committee
within 180 days of enactment of the act.

Pursuant to this directive, we are initiating an audit of ITA consolidation. Our objectives are to
(I) assess the status of ITA consolidation; (2) evaluate whether resource changes as a result of the
consolidation, including staffing, funding, and administrative/overhead costs, are aligned with ITA
strategic priorities and sufficient for providing services to ITA customers and stakeholders; and
(3) identify management and leadership challenges that might hinder the consolidation effort.

We will contact your audit liaison to schedule an entrance conference. In the interim, we will
forward a document list and request that you provide us the information requested within 2
weeks. If you have any questions about this audit, please contact Carol Rice, Director for
Statistical Programs, at (202) 482-6020 or Eleazar Velazquez, Supervisory Program Analyst and
audit manager, at (202) 482-0744. We appreciate the cooperation of your staff during this audit.


cc: 	   Paul Piquado, Assistant Secretary for Enforcement and Compliance
        Judy Reinke, Acting Assista nt Secretary for Trade Promotion
        Maureen Smith, Deputy Assistant Secretary for Industry and Analysis
        Justin Guz, ITA Audit Liaison
